No. 20-5764
IN THE SUPREME COURT OF THE UNITED STATES

RODNEY BERRYMAN

SR . , Petitioner,

V.
ROBERT K. WONG 3 Respondent.

CERTIFICATE OF SERVICE BY MAIL

I» Rodney Berryman Sr., submitting In Pro Se hereby certify that on
March 22, 2021, a copy of the Petition for Rehearing in the above
entitled case was mailed, first class postage prepaid to:
RYAN B. McCARROLL,
DEPUTY SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
1300 I STREET, SUITE 125
?.0. BOX 944255
SACRAMENTO, CA 94244-2550
PH. (916) 210-7668

SAOR E. STETLER
ATTORNEY AT LAW
P.O. BOX 2189
MILL VALLEY, CA 94942-2189
PH. 415-388-8924

I further certify that all parties listed above have been served.
Rodney Berryman Sr. , ^&-J)rr<ouPlennufrnjM %

No. 20-5764
IN THE SUPREME COURT OF THE UNITED STATES

RODNEY BERRYMAN, SR., Petitioner,
V.
ROBERT K. WONG, Respondent.

DECLARATION OF SERVICE
PROOF OF SERVICE
I, RODNEY BERRYMAN Sr., DO SWEAR OR DECLARE THAT ON THIS DATE 3/22/2021
THAT THIS "DECLARATION OF SERVICE" IS IN COMPLIANCE WITH 28 U.S.C.§1746.
ALSO I HAVE SERVED THIS PETITION FOR REHEARING, ON EACH OF THE PARTIES
TO' THE ABOVE PROCEEDINGS OR THAT PARTY'S COUNSEL. AND ON EVERY OTHER.
PERSON REQUIRED TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE
ABOVE DOCUMENTS. AND BY HANDING IT TO THE CORRECTIONAL STAFF SO TO BE '
MAILED PROPERLY ADDRESSED TO EACH OF THEM., WITH FIRST CLASS POSTAGE
PREPAID OR BY DELIVERY TO A THIRD PARTY COMMERCIAL CARRIER FOR DELIVERY
WITHIN THREE (3) CALENDAR DAYS.
1. THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
2. RYAN B. McCARROLL, DEPUTY SOLICITOR., 1300 I STREET, SUITE 125 P.O.
BOX 944255 SACRAMENTO CA. 94244-2550., Ph. 916-210-7668
3. SAOR E. STETLER ATTORNEY AT LAW, P.O. BOX 2189 MILL VALLEY CA.
94942., Ph. 415-388-8924
4. I, RODNEY BERRYMAN Sr., DECLARE UNDER PENALTY OF PERJURY THAT THE
FOREGOING IS TRUE AND CORRECT.
5. EXECUTED ON .
6.

Jk/T)

A

